        On 21 November 1990, OIG received from the NSF Office of the Director (OID) a copy
of a letter from
                1
                .
minorities by the
                                      (the complainant) alleging "Discrimination against ethnic
                                            Association"         the letter was forwarded from
OID to NSF's Office of Equal Opportunity (0330) for action. The handling of such complaints
is generally the responsibility of 0330, and we monitored OEO's resolution of the matter.

        The allegation from the complainant was that he had "been discriminated against by . . .
the u      s      e of my extensive work with hispanics, rather than Anglo-Saxon Whites."
Under federal law, "No person in the United States shall, on the basis of race, color, or national
origin, be excluded from participation in, be denied the benefits of, or be subjected to
discrimination under any program or activity receiving Federal financial assistance. " 42 U. S .C .
Q 2000d. The complainant did not allege that he had been discriminated against on the basis of
his national origin, but on the basis of the national origin of the subjects of his research. OEO
concluded that the complainant's "allegations of discrimination by t h e against minority
applicants for fellow status amount to an attempt to frle a discrimination complaint on behalf of
those individuals." After consulting with the Civil Rights Division of the Department of Justice,
OEO concluded that the complainant had no basis under law to bring such a complaint on behalf
of others. OEO encouraged the complainant to have any victims of discrimination of whom he
was aware to file complaints themselves.

       We have no basis on which to question the resolution of this case by OEO in consultation
with the Civil Rights Division of the Department of Justice. Accordingly, this case is closed.




Counsel to the Inspector General


concur:




Assistant Inspector General for Oversight
